<html>
<title> - SMALL BUSINESS AND THE FEDERAL GOVERNMENT: HOW CYBER ATTACKS THREATEN BOTH</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









 SMALL BUSINESS AND THE FEDERAL GOVERNMENT: HOW CYBER ATTACKS THREATEN 
                                  BOTH

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                             APRIL 20, 2016
                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
     
     
     

            Small Business Committee Document Number 114-057
              Available via the GPO Website: www.fdsys.gov








                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-072                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
             Emily Murphy, Deputy Staff Director for Policy
                       Jan Oliver, Chief Counsel
                  Michael Day, Minority Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                               WITNESSES

Mr. Richard Snow, Owner, Maine Indoor Karting, Scarborough, ME...     4
Mr. Kevin Dunn, Technical Vice President, NCC Group, Austin, TX..     6
Mr. Nicholas A. Oldham, Counsel, King & Spalding, LLP, 
  Washington, DC.................................................     7
Mr. Stephen F. Mankowski, CPA, National Tax Chair, National 
  Conference of CPA Practitioners (NCCPAP), National Secretary, 
  NCCPAP, Partner at EP Caine & Associates CPA, LLC, Bryn Mawr, 
  PA.............................................................     9

                                APPENDIX

Prepared Statements:
    Mr. Richard Snow, Owner, Maine Indoor Karting, Scarborough, 
      ME.........................................................    25
    Mr. Kevin Dunn, Technical Vice President, NCC Group, Austin, 
      TX.........................................................    36
    Mr. Nicholas A. Oldham, Counsel, King & Spalding LLP, 
      Washington, DC.............................................    42
    Mr. Stephen F. Mankowski, CPA, National Tax Chair, National 
      Conference of CPA Practitioners (NCCPAP), National 
      Secretary, NCCPAP, Partner at EP Caine & Associates CPA, 
      LLC, Bryn Mawr, PA.........................................    47
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    NAFCU - National Association of Federal Credit Unions........    54
 
 SMALL BUSINESS AND THE FEDERAL GOVERNMENT: HOW CYBER ATTACKS THREATEN
                                  BOTH

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
2360, Rayburn House Office Building. Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Luetkemeyer, Hanna, 
Gibson, Brat, Hardy, Kelly, Velazquez, Clarke, Payne, Meng, and 
Adams.
    Chairman CHABOT. Good morning. The Committee will come to 
order. I want to thank you, everyone, for being here today, and 
we want to especially thank all of our witnesses for coming 
here to share your insights and expertise with this Committee 
on a very timely and important subject. In April of last year, 
this Committee heard from a panel of industry experts about how 
small businesses across the country are being threatened by a 
growing number and variety of cyber attacks. Since then, the 
threat to small businesses has only grown. Unfortunately, in 
many ways, the Federal Government's efforts to guard against 
this threat have not kept pace.
    This morning, the Committee will look at the effects of 
cyberterrorism and cyber attacks on both small businesses and 
on the Federal Government. Small businesses face an increased 
risk because they lack the resources to protect themselves 
against sophisticated cyber attacks. We must make sure that the 
Federal Government is part of the solution and not adding to 
the problem. It is vital to both the economic and national 
security of this nation that the sensitive data held by Federal 
Government be safeguarded. The owners, employees, and customers 
of America's 28 million small businesses need to have 
confidence that their data is secure.
    I think it is fair to say that confidence has been shaken 
in recent years with the cyber attacks on the IRS, the State 
Department, OPM, and even the White House. Between foreign 
hackers from countries like China and Russia and domestic 
identity thieves, the Federal Government has a target on its 
back that seems to get larger by the day.
    This is why recent findings by the Government 
Accountability Office (GAO) on cybersecurity problems at 
agencies like the IRS and the SBA, are so troubling to me and 
many other members of this Committee. Just this month, the GAO 
reported that the IRS paid $3.1 billion in fraudulent identity 
theft, or IDT, tax returns. Three billion dollars for people 
filing tax forms, for example, that were not the person who 
actually should be getting the credit back.
    When the GAO testified before this Committee earlier this 
year, they told us that ``the SBA has not conducted regular 
reviews of its IT investments.'' In these scenarios, American 
small businesses and consumers were put at risk due to a lack 
of diligence by Federal agencies. Just last week, I asked IRS 
Commissioner Koskinen about the data breach at his agency last 
May, which compromised the data of approximately 700,000 
accounts. The commissioner informed our Committee that there 
are 1 million cyber attacks at the IRS every day. Think about 
that. One million cyber attacks every day at the IRS, people 
trying to get into files for illicit, illegal purposes.
    With over 3 billion different mobile applications and $340 
billion in online commercial sales last year, business 
transactions are moving away from the cash register and toward 
the smartphone. It is great to be able to order your coffee or 
pay your electric bill or reserve a car ride using your phone, 
but with this convenience comes increased exposure for both the 
customer and for businesses. In 2015, the average amount stolen 
from small business bank accounts after a cyber attack was over 
$32,000.
    The fast pace of changes in technology means that hackers 
are coming up with more sophisticated methods to go after 
intellectual property, accounts, Social Security numbers, and 
anything else that can be used for financial gain or a 
competitive edge. With all of the uncertainty facing small 
businesses in today's world of e-commerce, it will take 
vigilance by all Federal agencies, and the watchful eye of this 
Committee, to ensure the data of small businesses and 
individual Americans remain secure. We must also look for new 
and innovative ways to help small businesses protect their data 
for this great and growing threat.
    I look forward to hearing from our witnesses here this 
morning, and I will now yield to the Ranking Member for her 
opening statement.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Technological innovations are vital to our modern economy, 
and even more essential to the nation's small firms. In fact, 
small businesses are some of the savviest users of technology 
by using the internet to access new markets to grow and 
diversify. Yet, for all the benefits technology brings to the 
equation, it also creates additional challenges for business 
owners, consumers, developers, and vendors. As more consumers 
and businesses participate in E-commerce, protecting our 
financial information from cyber attacks is critical.
    Unfortunately, recent data breaches at federal agencies, 
like the IRS and OPM, compromised financial data and personal 
information of millions of people. Attacks like this have made 
clear the weaknesses of the current cybersecurity landscape. 
Last year's attack on the IRS exposed over 700,000 taxpayers' 
accounts, and just last week we found out a former FDIC 
employee breached the information of 44,000 FDIC customers.
    These attacks strike close to home for many of us, 
including small business owners. Keeping software and networks 
up-to-date with the latest security is no longer enough. Cyber 
threats come in many forms, but they are devastating to both 
business owners and their customers. A single attack can wipe 
out a small business, which is why cybercrime poses severe 
problems for small businesses that are unprepared.
    Sadly, some small companies fail to recognize the value of 
cybersecurity as an investment until it is too late. On the 
other hand, small firms that do recognize the importance of 
such an investment often lack the resources to implement an 
effective security system. Just as we must strengthen private 
sector cybersecurity, we need to ensure Federal agencies take 
precautions.
    The testimony we will hear today will help us better 
protect the nation's small businesses from growing cyber 
threats. We will discuss the strengths and weaknesses of our 
federal initiatives and what more must be done for private and 
government data protection. In advance of the testimony, I want 
to thank all the witnesses for both your participation and 
insights to this very important topic.
    With that, Mr. Chairman, I yield back.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    If Committee members have opening statements prepared, we 
ask that they be submitted for the record.
    I would like to take just a moment to explain our timing 
and lighting system here. It is pretty simple. You get 5 
minutes. The green light will come on there and you can talk 
for 4 minutes. The yellow light will come on. That will let you 
know you have a minute to wrap up. Then the red light will come 
on after a total of 5 minutes, and if you could try and stay 
within that, we would greatly appreciate it. The members hold 
ourselves to the 5-minute rule, also, and we will ask you 
questions then.
    I would now like to introduce the panel. Our first witness 
is Richard Snow, owner of Maine Indoor Karting in Scarborough, 
Maine. Mr. Snow is here to provide his experience as a small 
business owner whose company was the victim of a cyber attack.
    Our second witness is Kevin Dunn, technical vice president 
of NCC Group in Austin, Texas. He has over 14 years of 
experience as a professional security consultant.
    And our third witness today is Nicholas Oldham, counsel at 
King and Spalding in Washington, D.C. In his current role, Mr. 
Oldham assists clients with cybersecurity and risk management, 
data privacy, incident response, and internal government 
investigations. We welcome you all here today.
    I would now like to yield to the Ranking Member to 
introduce the final witness.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman. It is my pleasure 
to introduce Mr. Stephen Mankowski, the national tax chair and 
national secretary for the National Conference of CPA 
Practitioners. He is also a partner at EP Caine and Associates 
CPA, LLC, where he advises individuals and small businesses on 
issues related to accounting, taxation, business consulting, 
and litigation support services. Welcome.
    Chairman CHABOT. Thank you very much. I would now like to 
recognize Mr. Snow. You are recognized for 5 minutes, sir. 
Thank you.

STATEMENTS OF RICHARD SNOW, OWNER, MAINE INDOOR KARTING; KEVIN 
  DUNN, TECHNICAL VICE PRESIDENT, NCC GROUP; NICHOLAS OLDHAM, 
  COUNSEL, KING AND SPALDING LLP; STEPHEN F. MANKOWSKI, CPA, 
 NATIONAL TAX CHAIR, NATIONAL CONFERENCE OF CPA PRACTITIONERS, 
NATIONAL SECRETARY, NCCPAP, PARTNER AT EP CAINE AND ASSOCIATES 
                            CPA, LLC

                   STATEMENT OF RICHARD SNOW

    Mr. SNOW. Good morning. Thank you, Chairman Chabot, Ranking 
Member Velazquez, and members of the House Small Business 
Committee for inviting me to testify today on the current state 
of cybersecurity for small companies and how phishing scams 
have impacted my own small business.
    My name is Rick Snow, and I am the owner of Maine Indoor 
Karting, located in Scarborough, Maine. We are an indoor 
entertainment venue with a go-kart track, mini golf course, 
arcade, and cafe. We have about 20 employees.
    I am pleased to be here representing the National Small 
Business Association, where I currently serve as a Board of 
Trustee member and Chair of the Environmental and Regulatory 
Affairs Committee.
    NSBA is the Nation's oldest small business advocacy 
organization with over 65,000 members representing every sector 
and industry of the U.S. economy. NSBA is a staunchly 
nonpartisan organization devoted solely to representing the 
interests of small businesses which provide almost half of all 
private sector jobs to the economy.
    Several data breaches within the Federal Government, 
including OPM, IRS, and DOD make it clear the government 
struggles to combat cyber attacks. If the government cannot 
protect its networks and data from cyber attacks with almost 
unlimited resources at its disposal, how can we expect 
America's small businesses to do so? Forty-two percent of NSBA 
members surveyed indicated that they have been the victim of 
cyber attack. In almost half of those attacks there was an 
interruption in service.
    I was the victim of a phishing attack, and I have also had 
my credit card stolen three times. When I was phished, I 
received an email from my bank that there had been a suspicious 
attempt to gain access to my account. The email urged me to 
immediately log in to my account and confirm that it was, in 
fact, an unauthorized attempt. The link provided in the email 
looked identical to the log-in page of my bank. Frantic that 
there had been a breach, I logged in, and as soon as I typed my 
password, I realized what had happened. I raced to the local 
branch of my bank to set up a new account which took several 
hours. It took about a week to get the new checks and debit 
cards for the new account to us. Since we used the cards and 
checks for all our bills and local purchases for our business, 
I had to either use our company line of credit or my own credit 
cards. This is not unusual as many small business owners often 
need to use their personal credit cards to support their 
business, especially during difficult times.
    The financial cost to my business paled in comparison to 
the delays and disruptions. My wife, who runs the day-to-day 
operations of our business, and her work were limited because 
she spent the week trying to update all of the vendors with the 
new account information.
    According to the NSBA 2015 Year-End Economic Report, in 10 
percent of cyber attacks, a bank account was improperly 
assessed. I was one of those. Two weeks after the initial 
phishing attack, I logged into our new account late Friday 
evening, and to my horror, found that my balance was zero. It 
was payday and I was terrified that the paychecks that were 
issued that day would not clear. We are supporting a number of 
families, many of which live paycheck to paycheck and could not 
have made it without that particular payday. I quickly 
discovered that three wire transfers were made that night to 
three different bank accounts around the country totaling 
$15,000.
    This is an ongoing threat of internet age, and it will 
evolve as long as the internet continues to facilitate commerce 
in the global economy. It is unlikely that there will be one 
solution.
    I am sorry. I missed a page. So, excuse me. Sorry.
    After a night of no sleep, I had to be at the bank first 
thing Saturday morning. I was lucky and was able to stop the 
wire transfers. I had to then spend another day away from work 
opening another account and going through the process of 
getting all my new cards and ordering new checks. My poor wife 
had to spend another week updating vendors. She spent the 
better part of 2 weeks away from her normal duties because of 
this phishing incident.
    My bank told me that this was a standard phishing loss and 
that I was lucky that I discovered it before the 48 hours had 
lapsed so no money was actually stolen. My business accounts 
were not protected against theft the way that my personal 
accounts would be, so the losses would have been on my 
business. This attack could have ended my business if I had not 
been able to recover the money. Most small businesses do not 
have a significant cushion to absorb these type of losses, and 
we are no different. Losing thousands of dollars during a tough 
time in the economy can make a significant different for me, my 
business, and my employees.
    As small businesses become increasingly dependent on the 
internet, they become a larger target for cybercriminals. These 
threats are very real and immediate. In fact, 94 percent of 
small business owners indicate they are concerned about being 
targeted by cyber attacks. For many small businesses, a 
cybersecurity incident could lead to an entire network being 
down for many days until the full extent of the problem is 
known and then fixed.
    This is an ongoing threat of the internet age and it will 
evolve as long as the internet continues to facilitate commerce 
at the global economy. It is unlikely that there will be one 
solution to stop the attacks. In fact, slowing and preventing 
these attacks will most likely require an ongoing process to 
identify new threats, vulnerabilities, and ultimately, 
solutions. I urge Congress and this Committee to always bear in 
mind the unique challenges that small businesses face and 
continue to include the small business community in that 
process.
    Thank you for allowing me to testify before the Committee 
today, and I would be happy to answer any questions that you 
might have for me.
    Chairman CHABOT. Thank you, Mr. Snow, for your testimony 
today. What a scary situation. Thank you.
    Mr. Dunn, you are recognized for 5 minutes.

                    STATEMENT OF KEVIN DUNN

    Mr. DUNN. Good morning, Mr. Chairman, Ranking Member 
Velazquez, and other esteemed members of the Committee. Thank 
you for the opportunity to testify today.
    My name is Kevin Dunn, Technical Vice President for NCC 
Group. For the last 15 years, I have dedicated my career to 
carrying out cybersecurity attacks against private companies 
and government organizations. I am not a criminal; I am a 
penetration tester. For our actions in this highly specialized 
field, my colleagues and I determine ways to break into 
organizations via cyber and physical means. Specifically, we 
are hired to identify vulnerabilities that allow a company's 
security to be compromised. This exercise subsequently allows 
us to provide customized advice to our clients, detailing the 
short- and long-term actions they should take to reduce their 
susceptibility to attack.
    My testimony today will focus on four areas: the strengths 
and weaknesses of cybersecurity training, increasing security 
when using cloud service providers, the potential impact of 
small business security on the government, and the benefits of 
a data-driven risk model.
    To evaluate the state of high level cybersecurity training 
designed for small businesses, I would like to explore two 
examples: training provided by the U.S. Small Business 
Administration and training provided by the Federal 
Communications Commission. Through these trainings, small 
businesses are able to gain awareness of important 
cybersecurity threats such as the dangers associated with 
phishing emails, malicious websites, malware, ransomware, and 
the typical motivations of attackers. This information provides 
an ample start for educating small businesses in a general 
awareness capacity and extends to providing cybersecurity tips 
for the major areas of concern. However, the training and 
guidelines are high level in nature and lack the depth of 
information needed to convert directly into hands-on actions. 
In the world of small business IT support where efforts are 
typically coordinated by owner-operators, this information may 
not be comprehensive enough to make a worthwhile difference 
beyond providing general education.
    Many small businesses use cloud service providers to 
implement important services like email, file storage, and data 
backup. This often unburdens the IT administration overhead 
from small business owner-operators or small businesses with a 
one- or two-person IT team. The use of third-party cloud 
service providers is typically a positive security move for 
small businesses. The attention to security from the major 
providers in this space affords a number of features that 
greatly increase the security of data for a small business.
    However, it should be noted that there are additional 
features that should be enabled to make attacks harder for 
adversaries. These features are often not enabled by default. 
Chief among these is the use of multifactor authentication. The 
majority of major online services now support the use of 
multifactor authentication using at least SMS messages to a 
cell phone as a means of out-of-band authentication. But 
despite this inexpensive option, it is often overlooked by 
organizations that use cloud services or internet services, 
relying instead on single factor authentication in the form of 
user names and passwords.
    The impact of a small business on the government should be 
considered in at least two key ways. The first concerns the 
direct and indirect connectivity between a small business and a 
government network. The second concerns small businesses in the 
government supply chain. A small business with a direct 
connection to a government network is likely a rare occurrence, 
but in such a scenario, if the small business is compromised 
sufficiently, an attacker's ability to traverse to a government 
network could be a simple task. However, examples of indirect 
connectivity are more common and are typically databased in 
nature. When government users consume the services of a small 
business, their user names, passwords, personal information, 
and other data could be used in a subsequent attack against 
government systems if extracted from a compromised small 
business system. Of course, the reverse is true as well.
    The second area to consider is when a small business is in 
some way part of the supply chain to a government department or 
agency. The most typical examples of this are where a small 
business develops software or hardware that is subsequently 
installed on government networks.
    Finally, a good way to think about security and a means to 
ensure that the approaches chosen to secure your organization 
are fit for purpose is to think first about the data you care 
about. Considering the data first is an excellent approach and 
one that is advised in the FCC's small business cyber plan at 
all. However, too few organizations actually consider their 
data or subsequently plan security around the value of 
different data types. Even fewer organizations consider what 
will happen when, not if, an attacker gains access to their 
data. Using a data-centric risk management model would allow 
small businesses to focus their security attention where they 
need it most.
    Thank you again for this opportunity to address this 
Committee. I will be happy to answer any questions.
    Chairman CHABOT. Thank you very much.
    Mr. Oldham, you are recognized for 5 minutes.

                  STATEMENT OF NICHOLAS OLDHAM

    Mr. OLDHAM. Mr. Chairman, Ranking Member, and members of 
this Committee, thank you for allowing me the opportunity to 
appear before you today.
    I have been involved in cyber issues for many years as a 
former Federal prosecutor at the U.S. Department of Justice, 
and now as an attorney at King and Spalding. In my practice, I 
counsel clients, both large and small, on cybersecurity risk 
management. Our interconnectivity is growing at an astonishing 
rate. This interconnectivity, especially the internet of 
things, holds tremendous promise for consumers and companies. 
It also creates new challenges in terms of cybersecurity 
because anything connected to the internet can be hacked.
    Cyber attacks cost businesses billions of dollars every 
year as a result. Where do small businesses fit into this 
landscape? The interconnected world lets small businesses 
develop new products and services and compete across the globe, 
but with cybersecurity, small businesses often get burned at 
both ends. They are less likely to have the resources to 
prevent breaches, and also may have fewer resources to respond 
to those breaches. It can be difficult for small businesses to 
find the right information and training, and the cost of 
mitigation measures in response can significantly impact a 
small business' bottom line.
    As a lawyer, I do not manage corporate networks. I do not 
conduct vulnerability testing. Rather, I believe that 
cybersecurity is as much a people and a process issue as it is 
a technical issue. I focus on the people and process side of 
the equation, addressing the legal and business cybersecurity 
risks faced by companies. I also help manage companies comply 
with their legal obligations, interact with various regulators, 
and respond to regulatory enforcement actions and litigation. 
These legal and business costs, including compliance costs, 
drain on employee morale, and time and reputational damage can 
be significant.
    There are at least three ways the government can play a 
role in lowering these costs. First, by addressing the 
cybersecurity education gap. When weighing the costs and 
benefits of enhancing their cybersecurity, companies may find 
that it is far more expensive to not implement basic security 
measures. The problem here is that there is a cybersecurity 
education gap. Small businesses may not find the information 
they need to properly assess and mitigate these costs.
    Bridging this education gap can be difficult for small 
businesses, especially those that lack the resources to hire 
specialized employees or cybersecurity experts. Even when 
information is available online, it is often difficult to find, 
rarely updated, and often inadequate.
    In many ways, cyber threats have analogs to traditional 
crime. In the traditional crime scenarios, small businesses 
would likely call the local police department for best 
practices in preventing or responding to crime. In the digital 
crime scenarios, there is no one logical place to call. The 
government may have a role in bridging the cybersecurity 
education gap by encouraging the development of cybersecurity 
education resources and connecting them to those who need them 
in the private sector.
    Second, many of the cybersecurity initiatives receiving the 
most attention are not necessarily tailored to small 
businesses. For example, the NIST cybersecurity framework is 
emerging as a leader, which is a promising development. This 
could simplify the landscape for small and large businesses 
alike. The current iteration of the NIST framework, however, is 
not particularly geared towards small businesses. It can be 
difficult and expensive to understand and implement regardless 
of business size, and until it is better tailored to small 
businesses, for some of them it may just be one more program 
that they cannot afford to keep up with.
    Perhaps more importantly, a small business might become 
subject to a cybersecurity framework by virtue of its 
contractual relationships. In this case, the small business 
might inadvertently expose itself to significant liabilities 
and cyber risks. While good cyber hygiene is important, to 
improve the NIST framework and similar programs and policies, 
the government should make a serious effort to increase the 
involvement of small business owners in all phases of the 
legislative and rulemaking process.
    Third, the current regulatory regime for cybersecurity 
presents additional difficulties for small businesses who will 
inevitably struggle to determine both what cybersecurity 
measures they are required to meet, and when a breach or attack 
does occur, what procedures the law requires them to follow. 
There are currently 51 different State or territory data breach 
notification laws and many of them are inconsistent with each 
other. I have seen a growing number of Federal agencies also 
stepping into this space.
    In short, there is a need to clarify and simplify what 
companies must do. Because of the complicated and evolving 
landscape, the on-the-ground expertise of the private sector 
must necessarily play an important role in these efforts.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    Chairman CHABOT. Thank you very much.
    Mr. Mankowski, you are recognized for 5 minutes.

               STATEMENT OF STEPHEN F. MANKOWSKI

    Mr. MANKOWSKI. Thank you. Mr. Chairman, Ranking Member 
Velazquez, and members of the Committee, thank you for inviting 
me to testify today.
    My name is Stephen Mankowski, a partner with EP Caine and 
Associates, the Executive Vice President of NCCPAP, the 
National Conference of CPA Practitioners, and a member of the 
AICPA.
    NCCPAP has been at the forefront of identity theft issues 
through our advocacy and testimony at prior hearings dealing 
with ID theft. NCCPAP members have helped guide numerous 
clients who have been victims of identity theft.
    ID theft has been growing exponentially for years. It seems 
that no matter what controls are put in place, criminals have 
better and more focused resources to circumvent these 
safeguards.
    The IRS reminds practitioners that they must be vigilant 
with their system integrity. Criminals are aware that the prize 
for breaching tax practitioner systems could yield not only 
names and Social Security numbers, but also several years of 
earnings, as well as bank information and dates of birth. Two 
Midwestern firms were compromised this tax season and had 
fraudulent returns submitted by utilizing their Electronic 
Filing Identification Number or EFIN.
    While firms are required to obtain an EFIN from the IRS to 
electronically file tax returns, paid preparers are required to 
use a Practitioner Tax Identification Number or PTIN. Firm 
information, including their Employer Identification Number, 
however, still appears on their tax return. Given the risk of 
firm ID theft, why has the IRS not adopted a firm PTIN, 
something that NCCPAP strongly recommends.
    Over the past year, as noted by the other panelists, the 
IRS has had multiple system breaches. First, the IRS online 
transcript program, Get Transcript, was compromised in May 
2015. The number of accounts affected now exceeds 700,000. The 
second breach was related to the IP PIN retrieval tool that was 
contained on the IRS website and is more troubling. The 
taxpayers who have IP PINs have already been victims of tax 
refund fraud and obtained the six-digit IP PIN to prevent 
further unauthorized account access or tax filings. This tool 
had been used using the same interface as Get Transcript but 
had remained available to the public, and unfortunately, those 
less scrupulous.
    Social Security uses a banking prenote to verify the 
accuracy of the recipient's banking information prior to the 
initial payment. Unfortunately, the IRS refund system does not 
include prenote account verification. The implementation of a 
prenote system could result in a significant reduction of the 
annual $3.1 billion misappropriation of government funds.
    While it is easy to understand that taxpayers want to 
receive their refunds as quickly as possible, one must ask a 
simple question: Is paying a tax refund in 7 to 10 days 
prudent? A recent survey by Princeton Research Group noted that 
22 percent of taxpayers surveyed would be willing to wait up to 
6 to 8 weeks to receive their refund if they knew it would 
combat identity theft.
    Taxpayers are urged to protect their personal data, but 
with widespread internet usage, online shopping, and criminals 
just waiting to pounce on unsuspecting victims, ID theft 
continues to grow. Individuals and businesses remain the target 
of cyber attacks and must remain cautious when opening emails 
with attachments, visiting web pages, or simply paying for the 
family groceries. Taxpayers often do not realize they have been 
a victim of tax-related ID theft until their electronically 
filed tax return gets rejected. Once a taxpayer has been 
victimized, they expect to obtain an IP PIN from the IRS, and 
starting in January 2017, they automatically will.
    In conclusion, NCCPAP feels that using the prenote 
technology that already exists and is used throughout the 
financial industry would allow taxpayers to continue receiving 
their refunds promptly while reducing refund fraud.
    Further, NCCPAP urges Congress to pass legislation to 
provide the IRS the necessary authority to regulate all tax 
preparers and require paid preparers to meet minimum standards. 
Currently, only CPAs, EAs, and attorneys are subject to the 
requirements of IRC Circular 230.
    Finally, NCCPAP calls on Congress to provide the necessary 
funding for the IRS to continually modernize and upgrade their 
systems to minimize and eliminate data security breaches. The 
first step would be Congress reauthorizing streamline critical 
pay authority to allow the IRS to secure top IT talent without 
a 3- to 6-month waiting period.
    Thank you for the opportunity to present this testimony, 
and I welcome your questions.
    Chairman CHABOT. Thank you very much, and we appreciate the 
testimony of all the witnesses here this morning. It was 
excellent.
    Mr. Snow, first, let me apologize to you for having to 
return a call there before your testimony. I apologize for 
that, but I had your written statement ahead of time, so I am 
prepared.
    You experienced a worst-case scenario for a small business 
cyber theft. What advice would you give to others who are put 
in the same or a similar situation?
    Mr. SNOW. The first thing I would do is to ensure that when 
you look at the website at the top, web ID, that there is a 
https ID, and that would have prevented that from happening. I 
just learned that in that process. But it would be very 
difficult to stop someone from just accessing the way it was 
with me because it was an identical website to the bank 
website. The login looked identical. In fact, there was no 
difference.
    What was more disconcerting to me was the fact that they 
stole the new account number, and to this day, no one 
understands how that happened; how they were able to access a 
brand new account opened with all that information and move 
money out of the new account, not the old account.
    Chairman CHABOT. How long did it take you to straighten all 
this out?
    Mr. SNOW. The whole process was about a month because, the 
first time we had to rush everything because they have to print 
new checks and new credit cards and everything, so it was about 
a week and a half. Then when we discovered the loss, it was 2 
weeks later. Then we had another week and a half or so of 
additional time to go through that whole process again.
    Chairman CHABOT. Mr. Dunn, in your testimony, you provided 
the example of using text message authentication as an 
inexpensive use of multifactor authentication. Are there other 
inexpensive steps the Federal Government or small businesses 
could make in order to verify accounts?
    Mr. DUNN. Yes. I think that you can use email. There are a 
number of channels that you can use. The situation really is 
that when you rely on just one thing, in perhaps this case as 
well, just a username and password, that that is a single point 
of failure. The point is to have more than one authenticating 
factor. A number of things could do that so long as it is out 
of band from the process.
    Chairman CHABOT. Thank you very much.
    Mr. Oldham, protecting the privacy and civil liberties of 
Americans is obviously an important component of cybersecurity 
discussions. What effort is the private sector making to 
protect consumers in this area?
    Mr. OLDHAM. One of the key goals is transparency, 
communicating to consumers what information is being collected 
and how is it being used. That has become even more important 
as the ecosystem is growing so that everything is connected, 
multiple third parties and the like, and the third party would 
include, for instance, sharing information with the government. 
I think the most critical step the private sector is taking is 
ensuring that there is this transparency.
    Chairman CHABOT. Thank you very much.
    Mr. Mankowski, in your testimony, you gave a firsthand 
account of how a tax preparer dealt with confusion and delays 
with the IRS in response to a data breach. What would you 
recommend to the IRS for future responses to a tax preparer 
once a breach has been confirmed?
    Mr. MANKOWSKI. That is a very good question, Mr. Chairman. 
What I would recommend, first of all, is that I have reached 
out to my contacts that I deal with through some of my 
committees at the IRS, and it is being addressed tomorrow at a 
monthly meeting. But in addition, I would advise practitioners 
to know who their local stakeholder liaisons are so they have 
an area that they could reach out to so that they can start the 
process of communicating with the IRS when they suspect there 
may be a breach, not once they actually confirm. Because during 
that period of time, if their EFIN was being used improperly, 
the IRS could have stepped in very quickly, disabled their 
EFIN, and could have potentially stopped fraudulent returns 
from being processed.
    Chairman CHABOT. Thank you. Let me give you another 
question. You mentioned a recent audit where 6 of 13 e-filing 
sites failed to take steps to protect consumers from fraudulent 
and malicious emails. What recommendations would you offer 
these sites in order to improve their cybersecurity?
    Mr. MANKOWSKI. That is also a very interesting question. I 
believe that is one that Mr. Dunn could probably help with as 
far as the cybersecurity aspect. But they would certainly need 
to ensure that as they are going through their systems that 
they are making sure that any incoming emails are being 
checked. There has been widespread spoofing of calls as well as 
emails coming in to companies that are purporting themselves to 
be high-level individuals within a company asking for data that 
they would normally be asking for, such as W-2s and such, that 
everything looks to be coming from that individual, everything 
looks the same, just the email address may be slightly or just 
something a little bit off. Companies really need to be 
vigilant as to looking at who emails are coming in from, and if 
they are not sure if it is legitimate or not, they should pick 
up the phone and call the person who they are actually getting 
this request from. Simply responding to that email, you are 
responding back to the criminal. Of course, they are going to 
say, oh, yeah, I am so-and-so, and I need to get this 
information to finalize a report for the board. They are 
further spoofing. They just need to be careful when they are 
responding, and as Mr. Snow had mentioned, making sure that any 
websites they go into do have the https that would mean that it 
is a secured website.
    Chairman CHABOT. Thank you very much.
    Mr. Dunn, I would follow Mr. Mankowski's advice, except 
that I am out of time, and I like to hold myself to the same 
rules I do everybody else. So I will yield back my time, and 
the gentlelady, the Ranking Member is recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Mr. Mankowski, last week we had the Commissioner of the IRS 
here testify before our committee, and he talked about the 
Cybersecurity Summit between the IRS and tax practitioners. 
From the industry perspective, do you believe this partnership 
is effective at preventing tax fraud?
    Mr. MANKOWSKI. I think it is a very good first step, and 
they have already shown that it has been successful. They have 
met with, and they have included initially people from State 
associations, State government, as well as the banking and 
software community, to work on trying to prevent tax returns at 
the onset when they are being processed into the IRS system. 
They have gone further and expanded their focus now to starting 
including practitioners into their groups, and they are 
estimating that last year, with the first year of their summit, 
they prevented in excess of 3 million fraudulent returns from 
getting into the system. Now they just need to understand that 
returns are, unfortunately, getting through the filters, so now 
they need to keep working on filters during the processing and 
primarily protecting the refunds because that is taxpayer 
dollars, as well as government funds, that are being 
misappropriated.
    Ms. VELAZQUEZ. Thank you.
    Mr. Snow, I am concerned that typically, small business 
owners view an investment as a way to increase revenues, yet, 
with cybersecurity they are expected to make an investment in 
order to prevent revenue losses. So is it often hard to 
persuade small firms to spend money without seeing an immediate 
return? What needs to be done to bridge this gap?
    Mr. SNOW. I think the number one issue that we have as a 
small business is that every single thing leads to the bottom 
line. Every decision you make adds a cost. In our case we have 
added insurance, cybersecurity insurance, to our overall cost. 
The unfortunate part of that is that the deductible is very 
high. It is a $5,000 deductible. For me, I am out that 
immediately. That is the same as my burglary insurance as well. 
When we have someone break into our building, which happened a 
few months ago and they destroyed our security system, it cost 
us $5,000, which is also our deductible. We are out that money. 
That happened to be all the revenues that we had for that 
particular month. So it really eats into our bottom line. It is 
very expensive.
    Ms. VELAZQUEZ. Mr. Dunn, in your estimation, how much would 
it cost a company, a small company, one with fewer than 250 
employees, to become cyber safe?
    Mr. DUNN. I think it is very hard to provide that 
estimation because it really depends on the data that they 
hold, the types of inputs and communication channels they have. 
We could be talking about a very simple setup or we could be 
talking about a very complicated setup. It is true that the 
cybersecurity industry has a certain price point that currently 
is very difficult for small business owners to take part in. 
Certainly, we are probably talking thousands of dollars in 
order to get consultative help.
    Ms. VELAZQUEZ. Thank you.
    Mr. Oldham, who do you think is best situated to handle 
cybersecurity threats, the federal government or private 
industry? Or do you think some sort of balanced public-private 
partnership is needed to properly address cybersecurity needs?
    Mr. OLDHAM. I think the balanced public-private partnership 
is the key. This industry is evolving so rapidly, and when the 
government gets involved, it becomes very static. I think it is 
important to make sure the private sector has a huge input, and 
that is why I think something like in this framework is a great 
start because it is voluntary. It attempts to coalesce the best 
standards that are out there, but it is also something that has 
a recognition that it needs to evolve over time. My worry is 
tipping the scale to one side or the other will cause the 
current industry to stagnate more.
    Ms. VELAZQUEZ. What type of recommendations would you offer 
for encouraging that type of partnership?
    Mr. OLDHAM. Number one, supporting NIST's efforts and what 
they are doing. Right now, NIST has put out a framework. It has 
had some widespread success but also quite a bit of criticism 
from industry. They held a workshop last month where they heard 
from several sectors of the industry, including small business, 
that it is not really approachable and useful. Just as a big 
picture, the NIST framework was designed for critical 
infrastructure, so it is not approachable for small businesses, 
ensuring that the NIST is putting the appropriate emphasis on 
adapting itself to particular market sizes and industries.
    Chairman CHABOT. The gentlelady's time has expired.
    Ms. VELAZQUEZ. Thank you.
    Chairman CHABOT. Thank you.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Chairman CHABOT. The gentleman from New York, Mr. Gibson, 
is recognized for 5 minutes.
    Mr. GIBSON. Thanks, Mr. Chairman. I appreciate the 
opportunity here today to hear from the panelists' illuminating 
testimony provided.
    Mr. Snow, I want to begin with you, just a point of 
clarification. You, in telling us about what had happened to 
you, you had made the comment that, fortunately, within 48 
hours you were able to take action. What was implied in your 
statement is we have a differentiation between business and 
personal liability or accounts. I am looking for clarification. 
Is there some dimension of FDIC that protects people? Why is it 
different? If you could just help me understand that, number 
one.
    Mr. SNOW. Number one, I do not know the exact 
ramifications. My understanding was because it was a wire 
transfer there is a 48-hour time that it runs. If you can stop 
it within that timeframe, the money does not actually transfer 
or they can call it back, the bank, with the interbank 
processes.
    Mr. GIBSON. Do any other panelists know the answer for 
that? Why is it that business does not seem to have the same 
protection as an individual? One of my constituents out there, 
if somebody was to do a phishing expedition on them and they 
would be under similar circumstances, I am curious if anybody 
knows the answer to that.
    Okay, for the Committee, I think that is something probably 
worth checking into. A concerning situation. I am glad it 
worked out okay for you there.
    Then Mr. Oldham--even though I know that it was Mr. Snow--
it was very burdensome and onerous on your bottom line based on 
you had to divert resources. Mr. Oldham, in one of your 
comments you talked about that the Federal Government might 
want to look at clarification or clarity in terms of what 
companies must do when these circumstances happen, reporting 
requirements and the like. What is your understanding of what 
the SBA requires now with regard to--or the United States 
Government--in terms of a protocol when a company faces an 
attack?
    Mr. OLDHAM. I am not aware of anything from the SBA, but 
the notification requirement at large are a hodge-podge. If it 
involves financial information, the Gramm-Leach-Bliley Act 
would require notification. If it is healthcare information, 
regulations under HIPAA would require notification. Each of the 
State data breach laws have different definitions, and I think 
one of the key concerns, especially if you are a small business 
and you may have information involving people from multiple 
jurisdictions or multiple types of information, there is an 
enormous cost of just figuring out what you have to do at the 
beginning.
    Mr. GIBSON. I appreciate that comment. In fact, it mirrors 
some of my experiences in the U.S. military. I think that is 
also worthwhile for the Committee to capture that. Maybe we 
should consider a clearinghouse requirement that really 
socializes, if you will, what companies must do under these 
circumstances.
    Finally, for the panel, I would love to hear your insights 
on this question, that with regard to science and technology, 
research and development, sort of blue sky, if you will, what 
do you think, based on your experiences, would be a worthwhile 
endeavor to address the issue of cyber attack at large--on 
businesses, on people, on government--on where you think we 
should put emphasis on for science and technology, research and 
development, to protect?
    Mr. DUNN. I think in most cases, every incident I have ever 
been involved with, the visibility of what is actually 
happening from a data and packet level is never where it needs 
to be. I would definitely like to see strides in that 
direction, some way of increasing the ability for us to 
understand from a network and data perspective what has 
happened in a given scenario.
    Mr. GIBSON. Thank you.
    Mr. SNOW. I think the most frustrating thing for me was to 
realize that someone at the receiving end of that money was 
going to show up and get that money, and that there was no 
action taken. On my private credit card thefts, purchases were 
actually made. The merchant was out of that merchandise. 
Obviously, they got the money for that merchandise, but we 
absorb it as all of the consumers in the overall doing 
business. There is no authority trying to stop these people, 
that I know of, trying not catch these people who are making 
these purchases with fraudulent credit cards or other things. 
That is the frustration that I have. I know that I can call my 
local police when they break into my building. If I walk into a 
bank and demand money, the FBI will be chasing me forever. But 
in this case, there is really no action that is done beyond 
what we had to do as individual business owners.
    Mr. GIBSON. Thank you. Mr. Chairman, I see my time has 
expired. I wonder if maybe science and technology, research and 
development into biometrics, is a possibility as a surety for 
any kind of transaction is worth our endeavors. But I thank the 
Chairman for the opportunity.
    Chairman CHABOT. Thank you very much. The gentleman's time 
is expired.
    The gentlewoman from North Carolina, Ms. Adams, who is the 
Ranking Member of the Investigations, Oversight, and 
Regulations Subcommittee is recognized for 5 minutes.
    Ms. ADAMS. Thank you, Mr. Chair. Thank you, Ranking Member 
Velazquez, for hosting this hearing.
    Some of you have mentioned the importance of education and 
training in cybersecurity. I am long-time educator and very 
interested in what we can do there.
    The Federal Government is involved in this in a number of 
ways. For example, last year, the Obama Administration 
announced the New Cybersecurity Consortium consisting of 13 
Historically Black Colleges and Universities, HBCUs, two 
national labs, and a K-12 school district. The goal is to 
create a sustainable pipeline of students focused on 
cybersecurity. My question to any of you, is the Federal 
Government doing enough to provide the kinds of expertise that 
small businesses need to ensure their cybersecurity? If you 
could speak to maybe some relationships between educating 
students beyond this point.
    Mr. MANKOWSKI. Ms. Adams, I will start the discussion. I 
believe that from a tax standpoint, the amount of education 
really starts from the government, from the IRS. As 
practitioners, we are continually discussing this with our 
clients that the IRS, with the different phishing phone calls 
and the email scams, that the IRS currently is not phone 
calling or emailing people. If they get any of these calls, 
they should hang up. If they get a email that says it is from 
the IRS, that they have an extra refund, just delete it, 
because they are not going to be authentic. But every day 
during tax season, it seemed my office was getting a phone call 
from someone who received a phone call that they were getting 
ready to get arrested. My partner in my firm had gotten a 
similar phone call. We actually had a little bit of fun with 
the people. We kind of strung them along for a little bit. But 
as times are changing, with the rules that were passed recently 
with collections within the IRS, some of that, as the 
collections get outsourced, the companies that are going to be 
taking over will be calling and could potentially be emailing 
our clients. It is going to create an even greater disparity of 
the education because what we have been telling our clients for 
years, come whatever point that the IRS is able to implement 
that process, everything we have worked on and gained with our 
clients over the last few years will pretty much be thrown out 
if they start getting phone calls from a collection for old tax 
balances. Thank you.
    Ms. ADAMS. Mr. Oldham?
    Mr. OLDHAM. I think there are two separate issues; both are 
very important. One is educating students as they come up about 
cybersecurity. That is critical. Just like educating people how 
to balance their checkbook to keep good financial sense, 
teaching people good cyber hygiene is going to be imperative 
for minimizing the cyber threats in the future.
    Today, educating small businesses can be more challenging 
because they have not had the years of education, such as a 
secondary student. However, the biggest issue that I see is 
that there is not a lot of helpful information out there that 
is practical and granular for small businesses. In fact, in 
preparation for my testimony today, I searched around the 
internet looking for small business guides and was surprised 
that in many locations, including on government websites, the 
links were broken, the guides were out of date, or the guides 
were so high level that I do not know how an owner-operator 
without IT security background would be able to implement 
security measures based on those guides.
    Ms. ADAMS. Okay. Well, let me move on to another question. 
Online marketplaces, such as eBay, have given small businesses 
greater access to suppliers and customers abroad. A McKinsey 
Global Institute study found that 97 percent of U.S. small- to 
medium-size businesses on eBay engage on export to other 
countries. My question is, do these marketplaces and 
international transactions expose small businesses to greater 
cybersecurity risk?
    Mr. Dunn, if you want to answer that?
    Mr. DUNN. I think the websites themselves and the online 
marketplaces do have to be vetted, do have to be verified to 
understand if they have any security flaws because, having a 
security flaw in a marketplace like that will expose the vendor 
and the small business to potential attacks. Understanding if 
there are any flaws in that marketplace is really critical.
    Ms. ADAMS. Quickly, Mr. Dunn, you talked about the use of 
cloud computing. What is the best way that small businesses 
could benefit from using cloud providers to improve their 
security?
    Mr. DUNN. I think not doing conventional IT in-house is a 
good move. Using email and file storage from a cloud service 
provider will be beneficial because it is not on premises, and 
typically, the major providers of those services are doing a 
lot in security and more than a small business could do.
    Ms. ADAMS. Thank you. I am out of time, Mr. Chair. I yield 
back.
    Chairman CHABOT. Thank you very much. The gentlelady yields 
back.
    The gentleman from Mississippi, Mr. Kelly, is recognized 
for 5 minutes.
    Mr. KELLY. Thank you, Mr. Chairman. I thank each of you 
witnesses for your insight here today.
    First of all, I would like to echo what the gentleman from 
New York, Mr. Gibson said. I think it is important for us as a 
Committee to find out if there are different rules for persons 
and small businesses and then large corporations to make sure 
that we are protecting each of those in an appropriate manner.
    Second, Mr. Snow, it is a travesty what happened to you, 
but that story is repeated over and over again across this 
nation. As a former district attorney, I can tell you that 
there is a lot of room that we can improve in this. Do you have 
any specific areas that you think the Small Business Committee 
or the Small Business Administration can help to either educate 
or inform the general public and small business users that we 
can take forward?
    Mr. SNOW. Thank you. I believe that education is probably 
the key. Obviously, cost is another big concern for every small 
business. When you start a business, capital is usually at a 
premium, and when you sit down, in my case, I have close to 
70,000 members who come in and race at my track throughout the 
time that we have been open. I have their data, and it is in a 
server that I have to protect. That is a concern. My software 
is provided by a Belgium-based software company, so I have to 
have access to them. They come in at night to update and 
upgrade the system on a regular basis. In an international 
marketplace that we are in, I think education is very important 
so that the small businesses understand. The other issue is the 
liability is significant, and a lot of small businesses do not 
understand that. When I sat down with my insurance agent to 
renew our insurance, that was one of the questions I asked, and 
I was amazed, number one, at the cost to get the coverage, but 
number two, how few businesses actually apply and get that 
coverage. It can be very expensive for a small business.
    Mr. KELLY. Mr. Oldham, going back, as I said, first of all, 
thank you for your service as a prosecutor. I think they are 
some of the most important people enforcing this law, and being 
a former one, I am obviously biased in that. But I thank you 
for your service. As a former district attorney, I was on the 
local level or I was on the State level, and you as a Federal 
prosecutor. Quite commonly what I saw is that, number one, when 
small businesses or individuals are victimized, they do not 
know who, how, what they need to report.
    The second thing that I saw is quite often the 
jurisdictions are not clear. It is not clear where it is coming 
from, and they do not inform other jurisdictions, so they do 
not know if it is Federal, they do not know if it is State, 
they do not know if it is county, they do not know if it is the 
next State over. It is outside the jurisdiction of this 
hearing, but I think it is important that we inform law 
enforcement on how to deal with this and small businesses on 
how to inform law enforcement so there is a database that we 
can use to stop this. Do you have any ideas in that area?
    Mr. OLDHAM. I would say generally the jurisdiction issue is 
a major issue in prosecuting cyber crime cases. The resources 
are not there at the local level and it is hard to chase 
criminal information that is as wide as the web and tracks lead 
everywhere in the world.
    I think, going back to the education point from earlier, 
training local enforcement who are going to get the calls from 
businesses that have been breached on who to report to, who is 
the right person in the Federal Government who can help, or 
where is this database, as you mentioned, would be incredibly 
helpful to make sure the information is not just coming in for 
prosecution, but also going out to help the small businesses 
around the country.
    Mr. KELLY. On that same line, quite often, these people who 
take advantage of small businesses or individuals move from 
jurisdiction to jurisdiction, and there is not any database 
that gets us ahead of the curve. Quite commonly, they use the 
same scheme. From Mississippi, they will move to Alabama, they 
will move to Tennessee, they will move to New York City, but 
they continue to do that. Are you aware of any Federal database 
which keeps up with ongoing scams, especially those that are 
quite frequently the same group or persons or organizations 
that are doing the scams?
    Mr. OLDHAM. I am not. In my role now in advising private 
companies, I know we call the local law enforcement, usually at 
the Federal level, to report information, and we rely on them 
to come back to us with whatever information. But not with a 
lot of visibility of what is going on behind the scenes.
    Mr. KELLY. Are you aware of any program, and this is for 
any of you, from the SBA or from anyone else that keeps people 
informed of what the current scams are and the current phishing 
expeditions and those things? Because quite frequently, people 
fall victim to something that has been used over and over. Is 
there anything that keeps people informed where they can go to 
one source and see that?
    Mr. MANKOWSKI. I know that the IRS does release what they 
consider to be their ``Dirty Dozen,'' which are the top tax 
frauds that they are suspecting or they are seeing in any given 
year. What I have seen, especially with a lot of the phishing 
and the phone calls, is that initially, some of the local news 
stations were not all that keen on picking up on it, I believe 
until they started to realize that even some of the people, the 
top people within the IRS were getting the same phone calls as 
you and I may be getting, saying that they are about ready to 
get arrested or your wife is getting arrested or the sheriff is 
coming to take your car. Now the news stations are broadcasting 
that the IRS does not make the phone calls. They are getting 
the word out, which is good, because by getting it out on the 
news on that end, they are not using any of the budget that is 
constrained within the IRS at this time.
    Chairman CHABOT. The gentleman's time is expired. Thank 
you.
    The gentleman from New Jersey, Mr. Payne, is recognized for 
5 minutes.
    Mr. PAYNE. Thank you to the Chairman and to the Ranking 
Member. I appreciate the opportunity to be here, and to all the 
witnesses, thank you.
    I want to ask, would it make sense to coordinate 
cybersecurity efforts that are focused on small businesses 
through the SBA? My thought is that if business owners are more 
informed of computer security techniques and products to secure 
their networks, we may be able to help curtail some of these 
cyber attacks. Does that make sense?
    Mr. DUNN. Yes, I think so. I think having coordination and 
a place where really, truly, detailed information about threats 
and what to do about them is put at and made available to small 
businesses, would be excellent.
    Mr. MANKOWSKI. Just as a comment on that as well, one of 
the areas as far as coming out with too much specifics as to 
what you need to do, you are then laying out the playing field 
for what the criminals need to do to get around your system. 
That was evident, 2 years ago when the IRS released that no 
more than three refunds in a calendar year can go into a 
specific bank account. Through a lot of reverse engineering, 
they found out that if you start putting a zero before the 
account number and a second number and a third zero, it was 
tricking the IRS systems and the banks were disregarding it. It 
is nice to have the education, but they need to be aware that 
too much specifics as to what you are doing or what you need to 
do, you are laying out a simple playing field for the bad guys 
to just circumvent.
    Mr. OLDHAM. I think consolidating information in a place 
like the SBA would be very helpful. Mr. Dunn had mentioned the 
FCC planning tool earlier, which is a good start, but that is 
an agency that has jurisdiction over telecommunication 
companies. I do not think a small retailer or other companies 
of that nature would be going to the FCC's website. I think you 
want to be able to have those resources in a place that folks 
are willing to call or to search for.
    Mr. PAYNE. Sure. I think it would be a natural depository 
of information. They are already dealing with the agency, so 
that is something that might make sense.
    Unfortunately, even when consumers receive notification of 
a security breach, many of them do nothing about it or just do 
not know what to do and the next steps to remedy the breach. 
What should they do to protect themselves from increased risk 
of identity theft?
    Mr. SNOW. I have got a number of levels of security systems 
that I have put in place. Number one, I have an external server 
provider that has a junk mail box. So anything that does not 
look accurate or looks not quite right, it goes directly into 
the junk mail. I have an internal system within my network in 
the building that also looks at that, and that has a separate 
junk mail file. So if it gets through the first level of 
protection, it then goes to the second level, at which point 
the user would have to override that junk mail from both 
levels. That is one.
    Going back to your other question, I think for me as a 
small business owner, consistency is very important. As the 
other members mentioned, every state has a different 
jurisdiction, and for me as a small business owner, I have 
customers all over the world. If I were ever to be breached and 
that data was accessed, I would have a number of different 
jurisdictions to go after and figure out what I need to do. 
There is a tremendous cost in that.
    Mr. DUNN. I think to the point of defense in depth and not 
relying on any single point of failure, that is pretty key. The 
concept of having several things that ultimately would have to 
be bypassed is typically the best approach instead of just 
having one particular thing.
    Mr. OLDHAM. One thing that your question raises is the fact 
that many Americans are receiving these breach notification 
letters and they all give the same advice: monitor your 
accounts, sign up for credit monitoring. It seems like maybe a 
better way of getting at that is general consumer education as 
opposed to forcing companies to send out these notifications 
that many of us receive every week, every month, and doing it 
maybe a slightly different way that is more impactful for the 
consumers.
    Mr. MANKOWSKI. Finally, from a tax perspective, people, 
taxpayers, if they do receive one of these breach notifications 
and find out that they have been a victim of identity theft, 
they need to not only report it to the three credit agencies, 
they should also file a specific form with the IRS, which would 
put them on notice that they were a victim and that to be 
careful for a fraudulent tax return coming in from them.
    Mr. PAYNE. Thank you, Mr. Chair, I yield back.
    Chairman CHABOT. Thank you very much. The gentleman's time 
is expired.
    The gentleman from Missouri, Mr. Luetkemeyer, who is the 
Vice Chairman of this Committee, is recognized for 5 minutes.
    Mr. LUETKEMEYER. Thank you, Mr. Chairman.
    Mr. Oldham, quick question for you. We have seen that cyber 
attacks come in all shapes and sizes and go after businesses of 
all shapes and sizes, including government agencies, such as 
the NSA and Office of Personnel Management. While no one thinks 
that one size can fit all, should not every business and 
government agency that handles highly sensitive data have some 
reasonable, but also mandatory, policy and procedure in place 
for security data against loss and theft?
    Mr. OLDHAM. Absolutely there should be policies in place 
that is standard and mandatory at any government agency that 
handles sensitive data.
    Mr. LUETKEMEYER. It is interesting. Mr. Snow talked about 
an insurance policy in place. Can you elaborate just a bit, Mr. 
Snow, with regards to availability and cost and coverages of 
insurance policies that are out there for cyber attacks? Does 
it count for your monetary loss or losses to your customers? 
Does it also cover the liability exposure that you may have to 
other customers that do business with you?
    Mr. SNOW. My understanding is it covers the notification 
mandates that are required around the country. What would 
happen, from my perspective, is that I would notify the 
insurance company, and they would immediately come to my aid in 
terms of notifying all the customers that their data may have 
been breached, and also to provide that security to the 
individual that had the breach in terms of credit reporting and 
other things. That was my understanding. That was the least 
expensive of the policies that are out there. There is a whole 
gamut of different insurance policies that you can get, I am 
sure covering all the way up to the large liabilities. We have 
also, on top of that, an umbrella policy that we hope will 
cover what we feel--in our case we have a $2 million liability 
policy--we hope that we will not exceed that in any particular 
breach, but it is an uncertain area.
    Mr. LUETKEMEYER. Mr. Oldham, you advise people on the risks 
that they incur. I would assume you have a pretty good 
knowledge or extensive knowledge of the availability of these 
things and how far they go and the costs?
    Mr. OLDHAM. Insurance policies. I am not an insurance 
lawyer, but certainly that comes up in cases. There is a wide 
range. To the cost in general, it depends on the number of 
pieces of data, such as affected individuals. If I am advising 
a client who has to give notifications in 30 different States, 
that is 30 different statutes that have to be reviewed to do 
that.
    Mr. LUETKEMEYER. So it is basically a policy that is 
tailored to the individual risk?
    Mr. OLDHAM. Yes, again, I am not an insurance lawyer, but 
when these insurance policies do come up and we have to look at 
them, there is a great variation. I am not aware of a standard 
insurance policy, and I think Mr. Snow, that is probably what 
your experience was that you were talking about, the 
marketplace is so new at this point.
    Mr. LUETKEMEYER. It seems to me that that is a burgeoning 
area of need, obviously, and so we will see how it develops.
    Along that line, Mr. Dunn, you mentioned a while ago that 
for small businesses that do business with the government, is 
there a possibility of compromising government information with 
those businesses and, therefore, they are exposed for a 
liability situation? Is there something in the contract that 
protects them, or do they need to be covering a risk there? How 
does that work?
    Mr. DUNN. I do not know necessarily about a contractual 
obligation. I think from the perspective of interconnecting 
systems or share of data there is a liability in either 
direction. If an attacker was to gain access to a small 
business that services a government client, the assumption is 
either the value of the data or some direct connectivity to the 
government agency may exist.
    Mr. LUETKEMEYER. We have an exposure there you need to be 
careful of, right? As a business, you are going to have to have 
some sort of, I would think, an insurance policy or some bond 
of some kind that would protect you in case something went 
wrong.
    Mr. DUNN. I think the whole area of cybersecurity insurance 
is quite new and fairly immature. I do not know an awful lot 
about it, but I often wonder what do you have to do in order to 
be insurable and how do you stay insurable. That may have some 
kind of compliance or regulatory check.
    Mr. LUETKEMEYER. I have always thought that the insurance 
companies are going to drive this issue because at some point 
they are the ones that are going to have to insure the issue, 
and therefore, they are going to demand certain standards. When 
those standards are out there, they are going to be the ones 
driving how this is all done.
    Mr. Chairman, I yield back the balance of my time.
    Chairman CHABOT. Thank you. The gentleman yields back.
    The gentleman from New York, Mr. Hanna, who is the Chairman 
of the Subcommittee on Contracting and Workforce is recognized 
for 5 minutes.
    Mr. HANNA. Thank you. Thank you, Chairman. Thank you all 
for being here.
    I want to talk about a bill--Mr. Payne actually mentioned 
it inadvertently--I coauthored with Derek Kilmer from 
Washington. It is the Improving Small Business Cybersecurity 
Act of 2016. We have 900 small business development agencies 
around the country. This bill, which would cost, we estimate 
almost nothing, would authorize and change the Small Business 
Act and direct these SBDCs to offer cyber support services to 
small businesses, again, at no additional cost. We would simply 
be leveraging the SBDCs cyber support services, DHS, and 
Department of Homeland Security, and the Small Business 
Administration would simply be required to review current 
Federal programs and develop, along with the SBDC, a 
cybersecurity strategy to help in all communities throughout 
the country. I want to ask you a question, Mr. Dunn, and anyone 
who wants to weigh in, it sounds like this problem is, at the 
very least, a moving target, and it is not just a moving 
target; it is an intellectually moving target. It is a one-
upmanship. It is a constant game, cat-and-mouse type of thing.
    You mentioned in your statement, Mr. Dunn, and I apologize 
for being late to this hearing, training needs to be offered 
but it tends to be too general. Is it a practical thing to talk 
to a small business person who may have one or two people and 
still have enormous impact potential against them. Is it 
practical in today's world to ask a person to be up to speed in 
the way they need to be, not just today but going forward. How 
do you manage that Mr. Oldham, anybody interested in answering 
that?
    Mr. DUNN. The concept is giving them-specific advice on the 
things that really matter to them. If the example is perhaps 
they want to offset their email services to a cloud provider, 
telling them specifically the settings that would be useful to 
turn on and the benefits is better than just telling them about 
general awareness concepts about the dangers of email, for 
example.
    Striving for this education around data as being the factor 
considered the most, you do not have to be up on all the 
security concepts that currently are happening, but you do have 
to understand what data you have, the value of it, and then 
what you should do based on the different value of the 
different data that you have.
    Mr. HANNA. In that sense, Mr. Oldham, anyone, so it is 
practical to do certain minimal things that help people broadly 
to limit the possibility of an attack? Mr. Oldham?
    Mr. OLDHAM. I think when you step back to the risk 
management aspect and not just to the zeros and ones, it is 
very important, as Mr. Dunn said, to focus on what the issue 
is, and it is usually driven by the types of data. Certain data 
is more sensitive than other data. Providing high-level 
guidance that says cybersecurity is important, you should have 
good cybersecurity, is not helpful to small businesses. It is 
helpful to provide targeted advice that is practical and 
granular to their specific situation.
    Mr. HANNA. The Small Business Development Centers around 
the country, the 900, would it be possible for them to 
establish a basic format that would help the majority of small 
businesses out there without making it too complicated, 
difficult, and would it be helpful?
    Mr. OLDHAM. I think it would be helpful as long as they 
have the right expertise going into that guidance. One of the 
issues that happens in this space is guidance gets put out but 
it does not evolve with the threat. That is one of the big top-
level messages, this threat evolves rapidly, and so do the 
legal requirements.
    Mr. HANNA. If the Small Business Development Centers were 
able to do this updating, they could be a source in that 
community, rather than so many randomly small businesses trying 
to do it on their own and maybe not being entirely effective in 
that?
    Mr. OLDHAM. It sounds very promising. Yes.
    Mr. HANNA. Thank you. Chairman, I yield back.
    Chairman CHABOT. Thank you. The gentleman yields back.
    I want to thank our witnesses for being with us here today. 
They have helped to clarify just how vulnerable many small 
businesses and individuals are to cyber attacks. It is a 
growing and evolving problem, and you have helped shed some 
light on what should be done to combat it. For that we thank 
you very much.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record. Without objection, so ordered. If there is no further 
business to come before the Committee, we are adjourned. Thank 
you very much.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
    
    
                            A P P E N D I X
                            
                            
                            
                            
                            
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                            
                            
                            

                              Statement of

                           Nicholas A. Oldham

                                Counsel

                          King & Spalding LLP

                               before the

                     U.S. House of Representatives

                        Small Business Committee


                             April 20, 2016

    Chairman Chabot, Ranking Member Velazquez, and members of 
the Committee, thank you for the opportunity to appear before 
you today.\1\
---------------------------------------------------------------------------
    \1\ The views and opinions expressed in this statement are mine and 
do not necessarily reflect the views or opinions of King & Spalding or 
any of its clients.

    I have been involved in cyber issues for many years--as a 
former federal prosecutor at the U.S. Department of Justice and 
now as an attorney with King & Spalding. In my practice, I 
counsel clients, both large and small, on the legal aspects of 
---------------------------------------------------------------------------
cybersecurity risk management.

    Today, I focus my testimony on the cybersecurity landscape 
for small businesses, and on three areas of particular 
concern--the cybersecurity education gap, the need for 
cybersecurity initiatives to be calibrated for small 
businesses, and the need to clarify and simplify the current 
regulatory environment.

    Background

    We are living in exciting times. Digital assets and 
connected systems have generated new products and services, 
redefining how business is conducted and services delivered. 
But the truth is that we are only at the beginning of the 
beginning when it comes to understanding the implications of 
our reliance on this interconnectivity and the dangers that 
cyber threats present.

    Our interconnectivity is growing at an astonishing rate, 
with some estimates that there will be as many as 50 billion 
devices connected to the Internet by 2020. As a result, we are 
marching toward an infinitely connected world: always online, 
our information moving from network to network and device to 
device.

    Partly as a result of this interconnectivity, businesses 
are gathering and utilizing an ever-growing amount of 
information to improve their business practices and better 
serve their customers. Today, every online communication, 
transaction, and anything else you can think of can be captured 
and stored, and then transmitted electronically anywhere and at 
anytime. This interconnectivity, especially including the 
Internet of Things, holds tremendous promise for consumers and 
companies.

    It also creates new challenges in terms of cybersecurity 
because anything connected to the Internet can be hacked. Cyber 
threats vary from the technologically sophisticated to the 
surprisingly low tech methods such as ``social engineering'' 
and spear phishing. A recent RAND Corporation study found that 
over a quarter of American consumers received a notice that 
their data was stolen within the past year alone. Forbes 
recently reported that cyber-attacks cost businesses an 
estimated $400-500 billion per year, and because many cyber-
attacks are not reported, it is believed that the real number 
is significantly higher. These reports underscore the 
significant costs of preparing for, responding to, and 
recovering from cyber incidents.

    Where do small businesses fit in this landscape? The 
interconnected world enables small businesses to develop new 
products and services and compete across the globe. However, 
growing cyber threats presents greater challenges to the same 
small businesses, which can lack the tools needed to 
effectively cope with the growing danger.

    Small businesses are appealing targets. Small businesses 
often have more digital assets than individual consumers, but 
their resources may not allow for the same level of focus on 
cybersecurity as large companies.

    Businesses of all sizes need adequate cybersecurity 
education, but it can be difficult for small businesses to find 
the right information and training.

    Small businesses also often feel the impact of cyber 
threats differently than large companies. Establishing 
effective cybersecurity and incident response mechanisms is 
complicated and can be expensive. When any business implements 
mitigation measures or responds to a cyber incident, it can 
lost significant time and money. The costs can sink a small 
business. Small businesses get burned at both ends--they are 
less likely to have the resources to prevent breaches and they 
also may have fewer resources to respond to those breaches.

    From Cyber Threat Awareness to Cyber Risk Management

    In June 2011, various Committees in both the House and 
Senate held hearings regarding data breaches at Sony and 
Epsilon Data Management. In March 2012, then-FBI Director 
Mueller gave a now famous speech at the RSA Conference in San 
Francisco. His oft repeated quote is that ``there are only two 
types of companies: those that have been hacked and those that 
will be.'' These events were key, early moments that helped 
raise awareness of cyber threats. We have much farther to go in 
terms of awareness and, perhaps more importantly, companies 
need to move from awareness to expertise in managing the new 
normal of cyber threats.

    As a lawyer, I do not manage corporate networks or conduct 
vulnerability testing. Rather, I believe that cybersecurity is 
as much a people and process issue as it is a technical issue. 
I focus on the people and process side of the equation, 
addressing the legal and business cybersecurity risks faced by 
companies including cybersecurity risk governance, compliance, 
and incident response processes. I also help companies comply 
with breach notification obligations, interact with various 
regulators, and manage their responses to regulatory actions or 
litigation. The legal and business costs, including compliance 
costs, drain on employee time and morale, and reputational 
damage, can be significant.

    The Cybersecurity Education Gap

    Before spending precious resources on increasing 
cybersecurity measures, it is natural for small businesses to 
carefully weigh the cost of putting new measures into place 
versus the cost to the company of the inevitable cyber incident 
if it does not take action. Because of the enormous potential 
costs of a cyber incident, which is difficult to quantify, 
companies may find that it is far more expensive to not 
implement basic security measures. The problem here is that 
there is a cybersecurity education gap: small businesses may 
not be able to get the information they need to properly assess 
and mitigate these costs.

    Bridging this education gap can be difficult for small 
businesses, especially those that lack the resources to hire 
specialized employees or cybersecurity experts. Basic resources 
are available online, but even where they provide crucial 
information, they can be difficult to find, are rarely updated, 
or are inadequate.

    On the legal compliance front, the Federal Trade Commission 
recently released a new web-based tool for developers who make 
health-related apps. The tool asks developers a series of 10 
high-level, yes or no questions related to their apps covering 
topics such as the apps' functions, data they collect, and the 
services they provide. Then, based on the answers to the high-
level questions, the tool identifies four potentially 
applicable federal laws. While useful as a starting point for 
introducing and orienting developers and other healthcare 
industry players to the legal thicket affecting health apps, 
the tool provides high-level guidance on the basics of only a 
few relevant laws.

    The FTC's tool is one example of an approach geared toward 
educating the public on legal compliance. The tool is somewhat 
promising, but does not cover all relevant laws and does little 
more than point the developers to summaries of the relevant 
language. This approach, however, could go a long way toward 
helping small businesses stay informed on cybersecurity legal 
best practices, provided such tools are expanded to cover a 
broader set of laws and give more specific, timely information.

    In many ways, cyber threats have analogs to traditional 
crime. Ransomware is cyber extortion, spear phishing is nothing 
more than a con artist taking advantage of the ubiquity of e-
mail. Hackers, moreover, are like burglars. They use their 
``gloves,'' ``dark clothes,'' and ``tools'' to get inside a 
network, stealing digital loot along the way. In the 
traditional crime scenarios, small businesses would likely call 
the local police department for best practices in preventing 
these crimes or responding to them. In the digital crime 
scenarios, there is no one logical place to call. The 
government may have a role in bridging the cybersecurity 
education gap by encouraging the development of cybersecurity 
education resources and connecting them to those who need them 
in the private sector.

    Existing Programs Are Not Geared Toward Small Businesses

    Many of the cybersecurity initiatives receiving the most 
attention are not necessarily tailored to take into account the 
realities of small business owners. Standards seem to be 
coalescing around the NIST Cybersecurity Framework in some 
areas, for example, which is a promising development. This has 
the potential for simplifying the landscape for small and large 
businesses alike.

    The current iteration of the NIST Framework, however, is 
not particularly geared toward the needs of small businesses. 
The Framework itself can be difficult and expensive to 
understand and implement regardless of business size, and until 
it is better tailored to small businesses, for some of them it 
may just be one more program that they cannot afford to keep up 
with. Perhaps more importantly, a small business might become 
subject to a cybersecurity framework by virtue of its 
contractual relationship with a partner that passes its 
cybersecurity obligations through its supply chain. In this 
case, the small business might agree to obligations under the 
cybersecurity framework without the same level of vetting it 
might undertake if it were adopting the framework from scratch, 
and thereby inadvertently expose itself to significant 
liabilities and expose itself and its partners to significant 
cyber risks.

    While good cyber hygiene is important, to improve the NIST 
Framework, and similar programs and policies, the government 
should make a serious effort to increase the involvement of 
small business owners in all phases of the legislative and 
rule-making process. Until small business concerns are fully 
baked into these standards, they could face serious challenges 
of adoption.

    The Current Regulatory Regime Is Difficult to Navigate

    The current regulatory regime for cybersecurity presents 
additional difficulties for small businesses, who will 
inevitably struggle to determine both (1) what cybersecurity 
measures they are required to enact, and (2) when a breach or 
attack does occur, what procedure the law requires them to 
follow.

    There are currently 51 different state or territory laws 
that pertain to the notifications a company that has been the 
victim of a data breach provide to its customers. They are 
inconsistent with each other in a variety of ways. 
Additionally, several states have enacted laws requiring 
companies to put ``reasonable security measures'' in place. 
What ``reasonable'' means in this context is evolving and can 
differ by jurisdiction and industry. I have seen a growing 
number of federal regulatory agencies stepping into the same 
space.

    The cost of ensuring compliance with laws for any company 
is enormous even before taking into account the cost of 
litigation and reputation damage if a breach does occur. Small 
businesses in particular are vulnerable to these costs because 
they can consume a much larger proportion of their available 
funds. Small businesses would benefit from a public sector 
approach that lowers the cost of compliance and the cost of 
implementing best practices.

    In short, there is a need to clarify and simplify what 
companies must do. Because of the complicated and evolving 
landscape, the on-the-ground expertise of the private sector 
must necessarily play an important role in these efforts.

    Thank you for the opportunity to testify before you today. 
I look forward to your questions.
                NATIONAL CONFERENCE OF CPA PRACTITIONERS


    22 Jericho Turnpike, Suite 110          T: 516-333-8282

    Mineola, NY 11501                    F: 516-333-4099

    Chairman Chabot, Ranking Member Velazquez and members of 
the Committee, thank you for inviting me to testify today. My 
name is Stephen Mankowski. I am a Certified Public Accountant, 
Executive Vice President of the National Conference of CPA 
Practitioners, (NCCPAP - the countries' second largest CPA 
organization) and a member of the American Institute of CPAs 
(AICPA). NCCPAP is a professional organization that advocates 
on issues that affect Certified Public Accountants in public 
practice and their small business and individual clients 
located throughout the United States. NCCPAP members serve more 
than one million business and individual clients and are in 
continual communication with regulatory bodies to keep them 
apprised of the needs of the local CPA practitioner and its 
clients. Accompanying me is Mr. Sanford Zinman, National Tax 
Policy Chair of NCCPAP.

    My firm, E.P. Caine & Associates CPA, LLC, has been 
preparing tax returns for over 30 years. My firm annually 
prepares well over 2,000 small business and individual tax 
returns as well as sales tax returns, payroll tax returns, 
highway use tax returns and Forms W2 and Forms 1099 
informational returns. We are in the trenches with clients 
discussing their tax, financial and personal issues, and the 
impact events and proposed tax law changes may have on them. 
Although our clients are mostly in the Pennsylvania, New York, 
New Jersey and Delaware areas, we serve clients in over 30 
states and also provide services to clients in Canada and 
Europe. In this respect our practice is the same as many 
members of NCCPAP and other smaller CPA firms throughout the 
United States.

    NCCPAP has been at the forefront of identity theft issues 
through our advocacy and testimony at prior hearings dealing 
with ID theft in June 2012. The initial hearings focused on the 
refund scams that were prevalent at the time, such as Mo Money. 
NCCPAP has remained vigilant on the topic and has been 
discussing these issues annually when our members meet with 
Congress and their staff and with IRS representatives. Our 
members have helped guide numerous taxpayers who have been 
victims of ID theft to navigate through the IRS to minimize the 
risk of further consequences.

    ID theft has been growing exponentially for years. It seems 
that no matter what controls are put in place, criminals have 
better and more focused resources to circumvent these 
safeguards. All businesses are at risk, from the largest to the 
smallest. Weekly, we are hearing about the latest business to 
be a victim of some level of cybercrime or ID theft. Mr. 
Richard Snow, who is also on the panel of witnesses today, has 
been a victim.

    All businesses are at risk, but CPA firms and tax 
practitioners are at a greater risk. The IRS reminds tax 
preparers that they must be vigilant with their system 
integrity. The criminals are aware that the ``prize'' for 
breaching tax practitioner systems could yield them not only 
names and social security numbers, but also several years of 
earnings as well as bank information and dates of birth. Thus, 
the IRS recommends that tax preparers create a security plan. 
IRS Publication 4557, Safeguarding Taxpayer Data, provides 
suggestions and a checklist. My firm has reviewed the 
Publication, continually trains our staff and, along with our 
IT consultants, monitors our information and controls to ensure 
that our offices not only meet but exceed these suggestions. 
Our network logs usage form all users and is monitored to 
ensure no unauthorized access. This includes staff with remote 
access to our server. We also require a user id and passwords 
to gain access to all of our software packages. Not all firms 
have been as fortunate regarding cyber security. Two Midwestern 
firms were compromised this tax season and had fraudulent 
returns filed through their electronic filing identification 
number (EFIN).

    I was able to speak with a partner at one of the affected 
firms. They were under the impression that their systems were 
secure. However, the breach occurred after installing a new 
copier system that had not been properly secured within their 
network. Once they determined that they did in fact have a 
breach, they attempted to contact the IRS. Unfortunately, there 
is no easy means to identify the proper area within the IRS to 
contact. Ultimately, it took nearly one month for a response 
from the IRS.

    Ensuring the security of client data has been and remains 
the goal of my firm and we take that task very seriously. 
Although our software has the ability to auto-generate the PINs 
for electronic filing (EF PIN), we became aware that the EF PIN 
was using a portion of the taxpayer SSN. We have opted to not 
use this part of our software and have chosen to manually enter 
the EF PIN. Some tax software packages use a random five-digit 
number and we have suggested our software provider offers the 
same option. Taxpayers are also able to obtain their own 
specific EF PIN through the IRS website through the entry of 
select information. Currently, this system is too new to 
ascertain the true effectiveness of the program; however, 
concerns exist as to whether the return would reject if this 
number was not used or what would happen if the taxpayer lost 
this number. It is not clear if there is a mechanism to 
retrieve the number from the IRS.

    Practitioners are also reminded to protect their EFIN. The 
IRS suggests practitioners log into e-services on a regular 
basis and verify the number of returns processed for their 
EFIN. While the number probably will not be exact due to the 
timing of return processing and updating of this service, 
significant differences could be a cause for alarm. 
Practitioners should contact the IRS e-Help Desk immediately if 
the difference is excessive. At the beginning of this filing 
season, the tax software community requested that tax 
practitioners update their EFIN authorization letter before 
they start using their EFIN. This is just another step in 
preventing potential unauthorized access to a practitioner 
EFIN. While in many cases the timing of this request might not 
have occurred at the most opportune time, such as when the 
first returns were to be filed, it sent a signal to the 
practitioner community that the software vendors understood the 
issues and were working in conjunction with practitioners to 
address ID theft.

    While firms that electronically submit tax returns are 
required to obtain an EFIN from the IRS, paid preparers 
initially included their social security number on tax returns 
and in 1999 were first offered the ability to use a Preparer 
Tax Identification Number (PTIN). The requirement to include 
the preparer's firm information, which includes their employer 
identification number, began in 1978. Given the risks of firm 
ID theft, why has the IRS not adopted a firm PTIN?

    There are two primary reasons that criminals attempt to 
breach systems--the challenge and/or for the information 
contained in the systems, both reasons for IRS action. The IRS 
has been transitioning to modern technology within its network 
protocols to enhance safeguards. During this transition, the 
IRS has encountered many of the same compatibility concerns 
that affect most businesses. As a CPA, I became aware of this 
when the IRS announced the planned retirement of the Disclosure 
Authorization (DA) and Electronic Account Resolution (EAR) 
options on IRS e-services in August 2013. When the tax 
practitioner community complained that the elimination of these 
options would have a significant impact on their practices, we 
were told that the platform on which these services were 
designed was not compatible with the new system architecture 
and the initial costs to rewrite the programming was excessive. 
The IRS has looked at a relaunch of these services in the 
future, but the added authentications might make the systems 
overly burdensome.

    In March 2015, one tax software vendor had its electronic 
processing systems compromised to the extent that the state of 
Minnesota and subsequently all states temporarily ceased 
accepting electronically filed returns from that vendor. One 
positive result of this situation was the formation of the IRS 
Commissioner's Security Summit, which initially included 
representatives from state governments, banking and the 
software community. This group approach was a positive signal 
from the IRS that the issues of identity theft and data 
security required a multi-faceted approach to work at stemming 
the increases in data security and ID theft. Their initial 
focus was addressing and stopping suspected fraudulent returns 
through the implementation of protocols to address issues with 
tax returns before processing and during the initial 
processing. According to a recent General Accounting Office 
(GAO) report, it is estimated that during the 2014 filing 
season the IRS paid approximately $3.1 billion in fraudulent 
refunds while preventing $22.5 billion. This was before the 
creation of the Security Summit.

    In its initial year, the Summit estimates that it has 
prevented in excess of three million fraudulent returns from 
being processed and refunds issued during the 2015 filing 
season, but many fraudulent returns are still getting through. 
The Summit has not been expanded to include tax practitioners. 
The next level of focus needs to be on securing the refund 
process. According to Senator Wyden, the IT budget within the 
IRS is now operating at a level lower than it was six years ago 
due to budget cuts. The criminals, however, have ample cash and 
sophisticated systems. They continually attempt to reverse 
engineer the security measures implemented by the IRS. One 
recent instance occurred when the IRS announced that only three 
IRS refunds would be able to be direct deposited into a bank 
account in any calendar year. It was determined that adding 
zeros before the account number would trick the IRS systems to 
think it was a different account number and allow the refunds 
to be deposited. It satisfied the IRS systems while being 
disregarded by the financial institutions. This was a case that 
I believe the IRS learned a valuable lesson--while you can 
publicly address the solutions being implemented, you should 
not provide the specifics. The limitation of refunds was 
designed as a deterrent, but ultimately only served as a means 
of preventing tax preparers from illegally collecting the fees 
from a taxpayer refund.

    The timing of the receipt of data by the IRS often comes 
into question. Often fraudulent returns are submitted with 
refunds transmitted long before the data needed to verify the 
income and the tax withholding is received by the IRS. 
Businesses filing Forms W-2 on paper are required to submit the 
data by the end of February, while electronic filers had an 
additional 30 days. In addition, an automatic 30-day extension 
had been available. Because of the delay in submission of these 
information returns, the criminals have begun filing fraudulent 
W-2s. In an effort to counter this practice, Congress has 
removed the automatic extension for filing paper or electronic 
information returns. However, a time discrepancy still 
remained. The Protecting Americans from Tax Hikes Act of 2015 
(PATH) clarified and simplified these dates. For tax years 
beginning in 2016, Forms W-2s will be required to be submitted 
to Social Security and Forms 1099-MISC will be required to be 
submitted to the IRS with the same due date as to the 
recipient. This accelerated timeframe should pose a significant 
hindrance for those who submit fraudulent returns. However, 
there is still the issue that the IRS will start processing tax 
returns during the month of January, usually on or about 
January 20, leaving a window for fraudulent tax returns to be 
submitted and processed before the IRS has the opportunity to 
match data.

    The IRS has estimated that it averages approximately one 
million breach attempts daily. However large that number might 
be, as a taxpayer I would expect that every attempt would be 
defeated. Unfortunately, over the past year, the IRS has had 
actual system breaches. First, the IRS online transcript 
program, ``Get Transcript'', was compromised in May 2015 and 
the number of accounts that the IRS admitted were affected has 
doubled several times. In February 2016 the IRS announced the 
affected accounts exceeded 700,000. The second breech that 
occurred recently related to the Identity Protection PIN (IP 
PIN) retrieval tool that is contained on the IRS website and is 
more troubling than the prior breach. The taxpayers who have IP 
PINs have already been victims of tax refund fraud and obtained 
the six digit IP PIN to prevent further unauthorized access or 
filings. This tool had been using the same interface as Get 
Transcript but had remained available to the public and, 
unfortunately, those less scrupulous. Finally, the IRS took 
this page offline in February 2016, nearly nine months after 
the initial Get Transcript breach.

    The March 2016 GAO report identified that the IRS has 
improved access controls, but noted that weaknesses still 
remain. One of the primary concerns addressed by the GAO 
surrounds the authentication of the user ID. The IRS has 
employed a multifactor approach using two or more factors to 
achieve authentication. This provides the basis for 
establishing accountability and for controlling access to the 
system. Their systems require that Homeland Security 
Presidential Directive 12-Compliant Authentication be 
implemented for IRS local and network access accounts. This 
involves password-based authentication with passwords that are 
not found in dictionaries and expire at a maximum of 90 days. 
This same protocol should be implemented for all user accounts, 
including e-services.

    The direct deposit of refunds is a fast, inexpensive and 
relatively secure means of issuing refunds. The IRS utilizes 
banking's ACH system, whereby a refund goes to a selected 
financial institution based upon their respective routing or 
ABA number. If an account number exists within the institution, 
the refund goes into the account. The IRS is mandated to 
process refunds within 21 days, unless additional processing 
time is required. Prior to the current Modernized e-File (MeF) 
system, the IRS had been operating on a ``accept by Thursday, 
refund following Friday'' schedule. Often under the MeF system, 
refunds have been processed even quicker. Taxpayers have grown 
accustomed to getting the quick refund and now wonder if there 
is a problem when it is taking longer than a week for their 
refund to appear in their account.

    Social Security Administration uses a banking ``pre-note'' 
to verify the accuracy of the recipient's banking information 
prior to the initial payment. The financial institution has 
five days to verify the information and notify SSA if there are 
errors or discrepancies. Failure to notify SSA could result in 
the institution being held liable for the funds if the funds 
are misdirected. Unfortunately, the IRS refund system does not 
include pre-note account verification. Funds are simply 
transmitted through the ACH network to the respective 
institution. Once deposited, there is no control on the usage 
of funds and often where there is fraud those deposits are 
moved immediately upon receipt. The implementation of a pre-
note system could result in a significant reduction of the 
annual $3.1 billion misappropriation of government funds.

    As discussed, Congress has mandated 21 days for refunds to 
be processed. While it is easy to understand that taxpayers 
want their refunds processed as quickly as possible, one must 
ask a simple question. Is paying a tax refund in seven to ten 
days a prudent use of taxpayer dollars? A recent survey by 
Princeton Research Associates noted that 22% of taxpayers 
surveyed would wait up to six to eight weeks for their refunds 
if they knew it would combat identity theft. NCCPAP members 
feel that simply using the pre-note technology that already 
exists and is used throughout the financial industry would 
allow taxpayers to receive their refunds promptly while 
reducing fraud.

    Unfortunately, despite all of the efforts of the IRS and 
Congress to curb ID theft, often the cause is unscrupulous 
preparers that are often unregulated by any authority. NCCPAP 
urges Congress to pass legislation to provide the IRS the 
necessary authority to regulate all tax preparers and required 
paid preparer to meet minimum standards. Currently, only CPAs, 
EAs and attorneys are subject to the requirements of IRS 
Circular 230.

    In conclusion, ID theft is an issue that initially gained 
traction with Congress in 2012. Much has occurred since the 
initial hearings and, unfortunately, the criminals have taken 
more steps to obtain information than the IRS has been able to 
block. The IRS is not alone in this battle. It seems that not a 
week goes by where there is not news of a major corporation 
announcing that their systems had been hacked. Taxpayers have 
become victims of ID theft through these breaches and do not 
necessarily understand the importance of contacting the IRS. 
While knowing that the IRS successfully thwarts approximately 
one million breach attempts each day is comforting, we should 
keep in mind that even one successful breach could be 
catastrophic to not only the IRS but to the taxpayer. Often, 
taxpayers do not realize they have been a victim of ID theft 
until their electronically filed tax return gets rejected. Once 
a taxpayer has been victimized, they expect to obtain an IP PIN 
from the IRS and starting in January 2017 they will. In 
Florida, Georgia and Washington, DC where ID theft has been 
rampant, the IRS implemented a voluntary IP PIN program. 
Unfortunately, this program failed to achieve the number of 
participants to make the program successful.

    Taxpayers are urged to protect their personal data, but 
with widespread Internet usage, online shopping and criminals 
waiting to pounce on unsuspecting victims, ID theft continues 
to grow. Individual and businesses remain targets of 
cyberattacks and must remain cautious when opening emails and 
attachments, visiting web pages and simply paying for the 
family groceries.

    There are several electronic filing options available to 
taxpayers. Many taxpayers use Free File, thirteen IRS-approved 
free e-filing tax service sites. In a recent audit performed by 
the Online Trust Alliance (OTA), six of the thirteen websites 
failed due to poor site security and not taking steps to help 
protect consumers from fraudulent and malicious email.

    IRS Commissioner Koskinen had the foresight to convene the 
initial Security Summit in 2015, which has proven to be 
successful. Unfortunately, the criminals always seem to be 
pushing the envelope further and further. Their approach is 
more focused and better funded. The Security Summit has now 
expanded its focus to include additional user groups, including 
tax practitioners, to further address cyber security and 
develop a multi-tiered approach to combat it. The only way to 
truly combat ID theft is to incorporate input from various 
sectors of the marketplace. This is a problem impacting 
businesses and taxpayers worldwide and will require global 
efforts to minimize and hopefully resolve. NCCPAP calls on 
Congress to provide the necessary funding to continually 
monitor, modernize and upgrade IRS systems to minimize and 
eliminate data security breaches. The first step would be 
Congress reauthorizing Streamlined Critical Pay Authority to 
allow the IRS secure top IT talent without a three to six month 
waiting period.

    Thank you for the opportunity to present this testimony and 
I welcome your questions.

    Respectfully submitted,

    Stephen F. Mankowski, CPA

    Executive Vice President, NCCPAP
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                                 [all]
</pre></body></html>
